OFFICE OF THE DISTRICT ATTORNEY, Bronx County

DARCEL D. CLARK
District Attorney

198 East 161st Street
Bronx, New York 10451

Phone (718) 838-7142
Fax (718) 590-6523

January 20, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Darrell Hemphill v. New York
Case Number 20-637
Dear Mr. Harris,
I write to request a second extension of time of four weeks under Rule 30.4, as modified
by the Order of March 19, 2020 to respond to the petition for a writ of certiorari in Hemphill v.
New York (No. 20-637). That would result in a new date for submitting a response of
Monday, March 1, 2021. On January 19, 2021, I communicated with Jeffrey Fisher, Esq., counsel
of record for Mr. Hemphill, and he has informed me of his consent to this request.
The underlying opinion of the New York Court of Appeals was entered on June 25, 2020,
and under this Court’s standing order of March 19, 2020, petitioner’s time to file the petition was
extended to November 22, 2020. The petition was filed on November 6, 2020.
I make this request due to extraordinary and unanticipated circumstances that arose since
my prior request for adjournment of December 4, 2020 that sought an extension of time to respond
to February 1, 2021. Put simply, within a week of the granting of that adjournment, I became
symptomatic with a virus that testing confirmed was COVID-19. Subsequently, each member of
my household, weeks apart, became infected as well, placing me in isolation and quarantine and
unable to set foot in my Office for the month of December. Subsequent to my household being
cleared of the infection, I unexpectedly suffered severe, longer-term symptoms of the virus,
including extreme fatigue and neurological effects that directly impacted my ability to answer the
petition. These effects lasted for weeks and required medical intervention.
Thank you for your attention to this request.
Sincerely,

cc:

Noah Chamoy
Jeffrey L. Fisher, Esq.
Assistant District Attorney
Counsel of Record for Petitioner
Counsel for Respondent
Professor of Law
Co-Director, Supreme Court Litigation Clinic
Stanford Law School
via e-mail: jlfisher@law.stanford.edu

